Memorandum from the Office of the Inspector General



February 11, 2009

E. Wayne Robertson, SP 5A-C

REQUEST FOR FINAL ACTION – AUDIT 2008-11714 – DISPOSAL OF SURPLUS
COMPUTER EQUIPMENT



Attached is the subject final report for your review and final action. [Redacted] Please
notify us when final action is complete.

If you have any questions, please contact Curtis Phillips, Project Manager, at
(865) 633-7359 or Phyllis R. Bryan, Director, Information Technology Audits, at
(865) 633-7332. We appreciate the courtesy and cooperation received from your staff
during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

CDP:JP
Attachment
cc (Attachment):
      Steven A. Anderson, SP 5A-C                John E. Long Jr., WT 7B-K
      William H. Bonham, WT 3A-K                 Charles H. McFall Jr., SP 2D-C
      Samuel S. Boozer, MP 3B-C                  Richard W. Moore, ET 4C-K
      Terrell M. Burkhart, WT 3A-K               Gabrielle A. Ratliff, WT 5B-K
      Frank A. Foster, OCP 2C-NST                Emily J. Reynolds, OCP 1L-NST
      Peyton T. Hairston Jr., WT 7B-K            James W. Sample, SP 5A-C
      David M. Harrison, SP 3K-C                 Joyce L. Shaffer, WT 4D-K
      Tom D. Kilgore, WT 7B-K                    Michael T. Tallent, MP 3C-C
      Ralph Edward King, WT 5A-K                 Robert B. Wells, WT 4B-K
      Melissa A. Livesey, WT 5B-K                OIG File No. 2008-11714
Disposal of Surplus Computer Equipment


          Audit 2008-11714
            February 11,
                     11 2009
Synopsis
  We found:
     TVA's process for the disposal of surplus computer equipment does not
      adequately protect TVA resources or track the disposition of surplus
      equipment. Specifically, (1) the equipment inventory in [redacted] was not
      correctly
              y updated
                 p       when equipment
                                 q p       was removed from service;; (2)
                                                                       ( ) equipment
                                                                            q p
      transferred from Information Services (IS) to Technology Initiative (TI) was
      not tracked to prevent unnecessary storage, loss, or theft; (3) TI did not
      maintain an inventory of equipment received for disposal or reconcile
      equipment received with equipment surplused by IS IS, and (4) the disposition
      records maintained by TI do not account for the disposition of 6,631, or
      63.9 percent, of the computers surplused by IS.
     TVA's policies, procedures, and practices for cleaning hard drives of surplus
      computer
             t equipment
                     i     t are generally
                                       ll adequate.
                                            d    t S Specifically,
                                                          ifi ll ththe h
                                                                       hard
                                                                          dd drives
                                                                               i
      examined during this review had been cleaned; however, documentation for
      redeployments, donations, and sales did not contain a certification that hard
      drives had been wiped.
  .



                                       2
Synopsis (cont.)
     TVA's handling of surplus computer equipment is not consistent with
      existing environmental regulations in that used or broken Cathode Ray
      Tube (CRT) monitors are not always packaged to prevent exposure to the
      environment or labeled as containing lead during storage or shipment.
     The current surplus
                     p    equipment
                           q p      p
                                    process could be improved
                                                       p      by:
                                                               y
       – Coordinating donations with Corporate Contributions.
       – Implementing agreements limiting TVA's liability when disposing of
               p y equipment.
         third-party q p
       – Reviewing the current process for recycling equipment to reduce the
         risk of an accidental disclosure of information.
      NOTE: Effective November 24,, 2008,, the responsibility
                                                     p       y for surplus
                                                                      p
      equipment was transferred from Procurement to IS. The findings in this
      report relate to the process in place before that change, and the
      recommendations should be considered as the reorganization is carried
      out.
      out


                                     3
Background
    This audit was initiated as a follow-up to an Office of the Inspector General
     report on Lost and Stolen Computers
                                Computers.
    Surplus computer equipment includes all electronic items such as personal
     computers, monitors, printers, laptops, servers, routers, switches, cell
     phones,, p
     p        personal digital
                         g     assistants,, LCD p
                                                projectors,
                                                   j      , and some lab
     equipment.
    IS is responsible for managing computer equipment and maintaining an
     inventory.
    IS, with input from TVA Business Units, determines when to retire
     equipment.
    Procurement's TI handled the disposition of surplus computer equipment.
     Eff ti N
     Effective November
                    b 2424, 2008
                            2008, th
                                  the TI group ttransferred
                                                     f    d tto IS IInfrastructure
                                                                      f t t
     Operations.




                                       4
Surplus and Disposal Process
  Identified for                   Equipment
                                     q p     Shipped
                                                pp                  TI Processes
  Surplus                          to TI                            Equipment
     • Equipment inventory           • The process for storing        • TI sorts equipment and
       maintained in [redacted].       and shipping surplus             determines best method
     • Inventory statuses              computer varies by site.         for disposal.
       include Production,             • Corporate locations—         • One of four methods is
       Removed Retired
       Removed,     Retired,             Facilities Management          used to dispose of
       Lost/No Discovery,                stores and ships the           equipment:
       Write-Off, and Stock.             equipment.                     • Redeploy to TVA
     • IS and Business Units           • Nuclear plants—                  organizations.
       determine when                    Facility staff store and       • Sell equipment.
       equipment is surplus              move the equipment.            • Donate to schools or
       and should be shipped           • Fossil plants—                   charities.
       to TI for disposal.
                 disposal                Laborers handle the            • Recycle
                                                                          R      l under
                                                                                      d a
     • [Redacted] updated to             process. In most                 Memorandum of
       reflect equipment                 cases, the equipment             Understanding with
       removed from                      is just stored in the            the Department of
       production.                       dock area until there            Energy (DOE), which
     • Hard drives wiped by IS           is a sufficient quantity         has a contract with
       personnel.                        for shipment.                    Tennessee Oak Ridge
     • Equipment turned over         • Shipments are to comply            National Recycle
       to Site or Facility             with environmental rules           Center (TORNRC).
       Management for                  and regulations.
       shipment to TI.
     • [Redacted] updated to
       reflect equipment was
       "Retired" after it is
       disposed
           p      of by
                      y TI.




                                         5
Objectives, Scope, and Methodology
     Objectives
      – The purpose was to determine if policies, procedures, and practices for
        handling surplus computer equipment:
           Adequately protected TVA resources.
           Prevented the inadvertent disclosure of TVA information.
           Complied with existing environmental regulations.
     Scope
      – Selected the period of October 1, 2007, to March 31, 2008, for the
        review.
     Methodology
      – Conducted interviews with TVA personnel involved with or responsible
        for handling surplus equipment to identify the policies, processes, and
        practices followed by IS and TI.



                                      6
Objectives, Scope, and Methodology
(cont.)
(     )
     Methodology (cont.)
      – Selected a judgmental sample of 185 items of equipment disposed of by
        TI to determine whether the status was correctly recorded in [redacted].
      – Using the same judgmental sample, determined whether TI followed
        their procedures for disposing of the equipment
                                              equipment.
      – Determined whether sales by TI for the period October 1, 2007, to
        March 31, 2008, were correctly recorded and the receipts correctly
        deposited
          p       in a TVA account.
      – Reviewed the transfers from IS to TI of the 185 judgmentally sampled
        items.
      – Forensically
                   y examined a jjudgmental
                                      g       sample
                                                 p of nine hard drives
        transferred from IS to TI to determine whether they had been cleaned of
        TVA information by IS.
      – Conducted interviews with TVA personnel responsible for environmental
        compliance.
            li


                                     7
Objectives, Scope, and Methodology
(cont.)
(     )
     Methodology (cont.)
      – Fieldwork was performed between April 16, 2008, and
        September 24, 2008.
      – We conducted this performance audit in accordance with generally
        accepted government auditing standards
                                        standards. Those standards require that
        we plan and perform the audit to obtain sufficient, appropriate evidence
        to provide a reasonable basis for our findings and conclusions based on
        our audit objectives. We believe that the evidence obtained provides a
        reasonable
                 bl basis
                    b i ffor our fi
                                 findings
                                    di    and
                                            d conclusions
                                                    l i     b
                                                            based
                                                                d on our audit
                                                                            dit
        objectives.




                                      8
Finding 1 – Process Improvements
N d d
Needed
     Information in [Redacted] Does Not Correctly Reflect Status
      – The information in [redacted] does not correctly reflect the inventory
        status of computer equipment after it is taken out of service as surplus
        or disposed of by TI.
            Only 11 percent,
                      percent or 21 items in our sample,
                                                 sample was initially classified as
             "Removed" when taken out of service as required by policy. The
             majority 89 items, or 48 percent, were initially classified as
             "Lost/Write-Off/No Discovery" when taken out of service.
            Only 18 percent, or 33 items in our sample, had been classified as
             "Retired" or in "Production" (items redeployed by TI) as required by IS
             policy.
            IS d
                does nott ttrack
                               k th
                                 the lif
                                     life cycle
                                             l off monitors
                                                      it    iin [[redacted].
                                                                    d t d] Our
                                                                             O sample
                                                                                   l
             included 24 monitors.




                                        9
Finding 1 – Process Improvements
Needed
N d d ((cont.))
   – Transfer of Equipment From IS to TI Not Tracked
        The process for
         Th            f transferring
                          t    f i surplus l computer t equipment
                                                              i    t from
                                                                     f    IS to
                                                                             t
         TI lacks adequate guidelines and controls to ensure appropriate
         disposal and prevent loss, theft, or destruction of equipment and the
         information it contains. Currently, equipment transferred is being:
         – Stripped of usable parts.
         – Damaged, lost, or stolen in transfer.
         – Stored for years before being transferred to TI.
                                                        TI
   – No Inventory Records of Equipment Received for Disposition
        TI does not document or inventory equipment received for disposal.
         TI records the disposition of equipment
                                        equipment, however
                                                    however, there is no
         reconciliation of equipment received with equipment surplused by
         IS. The absence of an inventory or reconciliation elevates TVA's
         risk for the inadvertent disclosure of information.



                                   10
Finding 1 – Process Improvements
Needed
N d d ((cont.))
     The records maintained by TI do not reflect the disposition of 63.9 percent
      of the computers surplused by IS during the period January 2007 to
      October 2008. During this period, [redacted] shows IS removed or retired
      10,378 computers from service; however, the disposition records
      maintained by TI show they disposed of only 3,747, or 36.1 percent, of the
      computers
             t  surplused.
                     l   d




                                     11
Finding 2 – Protection of Information
     Generally, the policies, procedures, and practices for cleaning hard drives
      of surplus equipment are adequate to protect TVA information; however
                                                                       however,
      improvement is needed in the following area:
      – The documentation for redeployments, donations, and sales did not
        contain a certification that hard drives had been wiped.
                                                            p    TI's effort to
        wipe hard drives is a secondary control as IS performs the primary
        control by wiping hard drives when they are retired. However, if TI is
        going to perform the control, it should be documented by the technician
        certifying the drive was wiped and the date the function was performed
                                                                      performed.




                                      12
Finding 3 – Environmental
C
Compliance
      li
     TVA's handling of surplus computer equipment is not consistent with
      existing environmental regulations
                              regulations. Computer equipment
                                                      equipment, including used or
      broken CRTs in storage or transit for recycling, is not regulated as
      hazardous waste. However, under 40 CFR 261.39, used or broken CRTs
      in storage or shipment must be packaged in enclosed containers to prevent
      release
        l      tto the
                   th environment.
                         i       t Th
                                    They mustt also
                                                l b be llabeled
                                                          b l d or marked
                                                                       k d
      indicating they contain lead. We found:
      – CRTs are not always packaged in enclosed containers to prevent
        release to the environment.
                       environment
      – They are not labeled as containing lead while in shipment or storage.
        (Slide 14 is a photo of a typical shipment.)




                                     13
Photograph of Equipment in Transit




                14
Finding 4 – Additional Process
Improvements
Improvements
     Improve Coordination of Donations With Corporate Contributions
      –   TI did nott coordinate
                          di t computer
                                      t equipment
                                             i     td
                                                    donations
                                                          ti  with
                                                                ith C
                                                                    Corporate
                                                                            t C
                                                                              Contributions.
                                                                                  t ib ti
          Business Practice 21 requires all TVA donations be processed or approved by
          Corporate Contributions to ensure they align with TVA's overall business objectives.
     Implement an Agreement When Handling Third-Party Equipment
      –   TVA disposes of equipment for certain third parties including distributors and the credit
          union. However, there are no agreements limiting TVA's liability if sensitive information
          is inadvertently disclosed or the equipment is not recycled correctly.
     Review Process for Recycling
                            y    g Equipment
                                    q p      to Reduce Risk of Accidental
      Disclosure
      –   Equipment considered scrap is disposed of through a Memorandum of Understanding
          with DOE, Oak Ridge, Tennessee. DOE takes ownership of the equipment, and it is
          processed for recycling
          p                  y    g under their contract with TORNRC. TVA ppersonnel believed the
          equipment shipped to TORNRC was being shredded. However, we found some
          equipment shipped to TORNRC as scrap was not shredded but shipped to other
          locations for disposition which includes resale on eBay. According to TORNRC
          representatives, they wipe the hard drives for the computer equipment resold. However,
          we were not able to confirm TORNRC wiped the hard drives
                                                                 drives.



                                             15
Recommendations
 IS should:
    IImprove the
               th process for
                          f recording
                                 di the
                                      th inventory
                                         i    t    status
                                                    t t off equipment
                                                               i    t in
                                                                      i
      [redacted].
    Update the current surplus equipment procedures to (1) reflect the new
     organizational structure and (2) include instructions for properly packing
     and labeling CRTs consistent with existing requirements.
    Establish an inventory system for TI that records all items received and
     their disposition.
    Reconcile equipment surplused by IS with equipment disposed of by TI.
    Require technicians to (1) certify hard drives on resold, donated, or
     redistributed equipment have been wiped and ((2)) complete the
     documentation required by the current procedures.




                                     16
Recommendations (cont.)
    Implement a process for coordinating with Corporate Contributions when
     equipment is donated as required by Business Practice 21 Contributions/
     Sponsorships.
    Implement agreements with third parties to limit TVA's liability if sensitive
     information is inadvertently
                                y disclosed or the equipment
                                                    q p      is not recycled
                                                                          y
     correctly.
    Review the process for recycling equipment to reduce the risk of accidental
     disclosure.




                                      17
Management Response to Draft
   TVA Management's Comments – The Vice President, IS, in general
     agreed d with
                ith our ffacts,
                            t conclusions,
                                   l i      andd recommendations
                                                           d ti    andd provided
                                                                            id d
     proposed actions to implement our recommendations. IS plans to
     (1) create a new department charged with the management of TVA's IT
     assets including receiving, inventory, and the surplus process;
     (2) evaluate additional technology such as radio-frequency
     identification (RFID), [redacted], and [redacted] to aid in the
     management of IT equipment; and (3) provide a common set of work
     instructions,, procedures,
                    p           , and a single
                                           g system
                                                y     for recording
                                                                  g inventory
                                                                            y
     information for use in the management of IT assets. (See the Appendix
     for the entire response.) Target for completion of actions is May 30,
     2009.
   A dit ' R
   Auditor's Response – We
                        W concur with
                                  ith management's
                                               t' proposed
                                                         d actions.
                                                             ti




                                  18
APPENDIX
Page 1 of 2
             APPENDIX
             Page 2 of 2




[REDACTED]
